No. 19-508
In the

Supreme Court of the United States
AMG CAPITAL MANAGEMENT, LLC, et al.,
Petitioners,
v.
FEDERAL TRADE COMMISSION,
Respondent.
On Writ of Certiorari to the United States
Court of A ppeals for the Ninth Circuit

BRIEF OF AMICUS CURIAE TRUTH
IN ADVERTISING, INC. IN SUPPORT
OF RESPONDENT

Bonnie L. Patten
Laura D. Smith
Truth in A dvertising, Inc.
115 Samson Rock Drive, Suite 2
Madison, Connecticut 06443

David T. Goldberg
Counsel of Record
Donahue, Goldberg, Weaver
& Littleton
1008 Pennsylvania Avenue, SE
Washington, DC 20003
(212) 334-8813
david@donahuegoldberg.com

Counsel for Amicus Curiae

300430

A
(800) 274-3321 • (800) 359-6859

TABLE OF CONTENTS
Page
Table of Authorities .................................................. iii
Interest of Amicus Curiae .......................................... 1
Introduction and Summary of Argument ................. 3
ARGUMENT .............................................................. 7
I. Courts’ long-recognized power to order
restitution in appropriate Section 13(b)
cases is vitally important to protecting
consumers and the economy ................................. 7
II. Section 13(b) is not properly read as
withholding courts’ historic power to order,
in appropriate cases, return of profits
obtained through the unlawful practices
the court enjoins ................................................. 13
A. The text of Section 13(b) may
not be construed as withholding
restorative relief ............................................ 13
B. Section 19 does not—and could not—
supply a basis for interpreting Section 13(b)
to withhold judicial power to award
restorative relief ............................................ 22

ii
III. Disabling Section 13(b) enforcement would
result in real and far-reaching consumer
and market harm ............................................... 30
Conclusion ................................................................ 32

iii
TABLE OF AUTHORITIES
Page(s)
Cases:
California v. American Stores,
495 U.S. 271 (1990) ................................. 14, 17, 18
Carter Products, Inc. v. FTC,
268 F.2d 461 (9th Cir. 1959)............................... 29
Fashion Originators' Guild of America v. FTC,
312 U.S. 457 (1941) ............................................ 11
Frank v. Poertner,
136 S. Ct.1453 (2016) (Mem.) .............................. 2
FTC v. Abbot & Co., 1 F.T.C. 16 .............................. 30
FTC v. Amy Travel Serv., Inc.,
875 F.2d 564 (7th Cir. 1989)............................... 29
FTC v. Credit Bureau Ctr., LLC,
937 F.3d 764 (7th Cir. 2019)........................... 8, 15
FTC v. Direct Mktg. Concepts, Inc.,
624 F.3d 1 (1st Cir. 2010) ................................... 29
FTC v. Gem Merch. Corp.,
87 F.3d 466 (11th Cir. 1996)........................... ….26

iv

FTC v. Quincy Bioscience Holding Co., Inc.,
753 Fed.Appx. 87 (2nd Cir. 2019) ........................ 2
FTC v. QT, Inc., 512 F.3d 858 (7th Cir. 2008) .......... 9
FTC v. Sec. Rare Coin & Bullion Corp.,
931 F.2d 1312, 1314-1315 (8th Cir. 1991 ........... 25
FTC v. Southwest Sunsites, Inc.,
665 F.2d 611 (5th Cir. 1982)............................... 16
FTC v. Wyndham Worldwide Corp.,
799 F.3d 236 (3rd Cir. 2015) .............................. 24
Great-West Life v. Knudson,
534 U.S.204, 211 n.1, (2002)............................... 18
Heater v. FTC,
503 F.2d 321 (9th Cir. 1974)........................ 23, 24
Hecht Co. v. Bowles, 321 U.S. 321 (1944) ................ 27
Kansas v. Nebraska, 574 U.S. 445 (2015) ............... 27
Landgraf v. USI Film Prods,
511 U.S. 244 (1994) ............................................. 19
Liu v. SEC, 140 S. Ct. 1936 (2020) ............... 15,18, 24

v
Meghrig v. KFC Western, Inc.,
516 U.S. 479 (1996) ............................................ .18
Nken v. Holder, 556 U.S. 418 (2009) ................. 14, 17
Porter v. Warner Holding Co.,
328 U.S. 395 (1946) ........................................ 3, 18
Romag Fasteners, Inc v. Fossil, Inc.,
140 S. Ct. 1492 (2020)......................................... 28
Root v. Lake Shore & M.S. Ry. Co,
105 U.S. 189 (1881) ....................................... 17, 18
Schine Chain Theatres v. United States.,
334 U.S. 110 (1948) ........................... 12, 13, 16, 18
Steel Co. v. Citizens for a Better Env’t,
523 U.S. 83, 129 (1998) ....................................... 20
Tull v. United States,
481 U.S. 412 (1987) ............................................. 17
United States v. Grote,
961 F.3d 105 (2d Cir. 2020) ................................ 29
Statutes and Rules
12 U.S.C. § 1467a… ................................................. 17

vi
15 U.S.C. § 45(m)(1)(C) ............................................ 27
15 U.S.C. § 53(b)(2) ........................................... passim
15 U.S.C. §57b ................................................... passim
Fed. R. Civ. P. 65… .................................................... 1
Other Materials
Alexander & Schwandt,
The Impact of Car Pollution on Infant and Child
Health: Evidence from Emissions Cheating
(revised 2019) ....................................................... .9
Black’s Law Dictionary (6th ed. 1990…. ................. 14
Black’s Law Dictionary (11th ed. 2019.................... 14
D. Dobbs, Law of Remedies (2d ed. 1993)) .............. 27
Laycock, The Death of The Irreparable
Injury Rule, 103 Harv. L. Rev. 687 (1990) ......... 15
Pitofsky, Beyond Nader,
90 Harv. L. Rev. 661 (1977) ................................. 7
J. Story, Commentaries on Equity Jurisprudence
(9th ed. 1866) ........................................................ 4

Interest of Amicus Curiae1
Truth in Advertising, Inc. (“TINA.org”) is a
nonpartisan,
nonprofit
consumer
advocacy
organization whose mission is to combat deceptive
advertising
and
consumer
fraud;
promote
understanding of the serious harms commercial
dishonesty inflicts; and work with consumers,
businesses, independent experts, and government
agencies to advance countermeasures that are
effective in practice.
At the center of TINA.org’s efforts is its website,
www.tina.org, which aims to re-boot the consumer
movement for the twenty-first century. The site
provides information about common deceptive
advertising techniques, consumer protection laws and
alerts about specific marketing campaigns—such as
nationally advertised “Built in the USA” vans
manufactured abroad and pillows and essential oils
falsely marketed as able to treat chronic disease . The
website functions as a clearinghouse, receiving
consumer complaints about suspicious practices,
which TINA.org investigates, and, when appropriate,
takes up with businesses and regulatory authorities.
The website is a repository of information relating to
consumer protection lawsuits and regulatory actions.
Through its collaborative approach and attention
to emerging issues and complexities, TINA.org has
become a trusted source of expertise on matters
Pursuant to Rule 37.6, amicus affirms that no person other
than amicus or counsel funded or made a monetary contribution
intended to fund the preparation or submission of this brief, and
no counsel for a party authored this brief in whole or in part. All
parties have consented to the filing of amicus briefs.
1

1

relating to consumer fraud. TINA.org regularly draws
on this expertise to advocate for consumer interests
before the FTC and other governmental bodies and
appear as amicus curiae in cases raising important
questions of consumer protection law. For example,
TINA.org participated as amicus in FTC v. Quincy
Bioscience Holding Co., Inc., 753 Fed.Appx. 87 (2nd
Cir. 2019), which reinstated a Section 13(b) suit
against a business falsely marketing a dietary
supplement as clinically proven to improve memory.
TINA.org also has filed briefs in numerous cases—
including in this Court, see Frank v. Poertner, 136 S.
Ct. 1453 (2016) (denying cert.)—involving proposed
settlements in consumer class actions. These
submissions have spotlighted economic realities
particular to that setting that can yield agreements
with large benefits for defendants and attorneys who
negotiate them, but that slight the public interest in
curbing harmful and deceptive marketing practices.
At first blush, this brief—which highlights the
critical importance of court-issued monetary remedies
in cases brought by the FTC and voices objections to
the prohibitory-injunctions-only regime petitioners
urge the Court to impose for Section 13(b) cases—
might appear to be in tension with concerns TINA.org
expressed in Frank, about settlements with large (or
large-seeming) monetary relief provisions, but token
forward-looking relief. There is no inconsistency. Both
submissions reflect TINA.org’s reality-based, “what
works” approach to the false advertising problem—
and commitment to regulatory and remedial
measures that recognize the problem’s complexity, the
challenges of effectively policing for and preventing
dishonest practices, and the massive damage those
practices inflict unless effectively checked.
2

Introduction and Summary of Argument
Petitioners maintain that in granting district
courts power to issue “permanent injunctions” in cases
of unlawful commercial dishonesty, Congress
withheld the power to include return-of-profits relief
in a final decree. Thus, in a case where a federal
district court finds the defendant is violating the FTC
Act’s bedrock prohibition against commercial
deception and where traditional equitable principles
support a decree that both halts the illegality and
dislodges its proceeds—indeed, even in cases of brazen
banditry that have long dominated courts’ Section
13(b) dockets—petitioners contend Congress confined
courts to “sin no more” orders.
Petitioners’ proposed rule should be rejected. For
centuries, Anglo-American courts have recognized
that an equity court’s authority to issue an injunction
against ongoing unlawful, injurious activity carries
with it the power to divest the wrongdoer of profits he
obtained before the court caught up with him. That
practice implements a universally acknowledged
principle of justice that “no man should profit from his
wrongdoing.” More than seven decades ago, this
Court, after affirming that “[n]othing is more the
subject of a suit for injunctive relief than that which
has been illegally acquired and which has given rise
to the necessity for injunctive relief,” Porter v. Warner
Holding Co., 328 U.S. 395, 399 (1946), held that courts
should interpret a statutory grant of injunctive power
as carrying with it this traditional “adjunct,” unless
Congress made a contrary intent unmistakably clear.
I. The statutory setting here and the public
interests at stake attest to the soundness and
continuing importance of the historical equity
3

practices the Porter rule preserves and of this Court’s
long recognition that return-of-profits relief is an
indispensable component of effective injunctive
decrees.
Deceptive marketing and similar forms of
commercial dishonesty are a scourge of the American
economy, inflicting billions of dollars in losses to
cheated consumers and distorting the efficient
allocation of resources, rewarding those who hone
ingenious fraudulent devices and punishing
competitors focused on bringing superior products to
market. Consumer fraud is a classic “market failure.”
And in many product markets, it is practically
impossible for consumers to protect themselves
against such deception.
For decades, consumer advocates and law
reformers have identified—and struggled to
overcome—barriers to the legal system’s ability to
ensure that dishonesty is not a winning business
model. These efforts first focused on fundamental
impracticality of individual common law litigation.
But in ensuing years, it has become clear that modern,
more generous remedies and modes of enforcement
can also fail to operate as intended.
The Section 13(b) restitution remedy at issue is a
conspicuous exception to this pattern of inefficacy.
This Court has recognized that enforcement regimes
that do not allow for decrees that both halt and undo
the unlawful behavior before the court are an exercise
in futility. Return-of-profits relief, moreover, is the
judicial equivalent of “light touch regulation,”
surgically tailored to undoing proven wrongs, while
posing no threat of windfall recovery. Indeed, because
relief issued under Section 13(b) may only be awarded
4

by a court, when under traditional equitable
principles, it provides further protection against
unfairness. The Section 13(b) regime petitioners urge
the Court to tear down also harnesses another historic
hallmark of equity jurisdiction—its focus on making
relief effectual, a vital priority where defendants have
the means and inclination to dissipate assets and
frustrate judicial remedies.
II. Petitioners do not defend the fairness of their
proffered regime. They hardly could, given that every
application would be a fresh violation of a
fundamental principle of justice. Nor do they point to
any tradition of equity courts categorically refusing to
return ill-gotten gains in cases where an order
prohibiting a practice was warranted—nor anywhere
Congress has expressly resolved to separate these
long-intertwined powers and confine a court to issuing
what amounts to cease-and-desist relief. Petitioners
do not seriously maintain that the ninety-third
Congress resolved to do that here—claiming only that
omission of the word “restitution” should or must be
treated as if Congress expressed that intent.
Petitioners and amici address much briefing to a
different provision of the Act—Section 19, which
permits restorative relief in enforcement actions
under the Commission’s administrative adjudication
authority. On their account, Section 19 affords
protections unavailable under Section 13(b), so
permitting the FTC to obtain restitution in a
permanent injunction suit defies that congressional
judgment. A “narrow reading” of Section 13(b), they
insist, advances interests in certainty and fair notice
they claim underlies that judgment.

5

A. On its own terms, and as supplemented with
claims about connotations of “prospectivity”
emanating from the term “injunction,” petitioners’
case for giving legal effect to the “omission” of
restitutionary relief is unconvincing. And it is plainly
insufficient under Porter. That leads petitioners and
amici to urge dispensing with the Porter presumption,
at least in cases where a comparable negative
implication can be asserted (which is to say, every case
it applies to), disparaging it as outmoded or even
constitutionally suspect. There is nothing illegitimate
about history-based canons of construction, and this
one does a better job of effectuating legislative intent
in this context—and of respecting the Constitution’s
distribution of powers—than does a generic rule
treating perceived statutory omissions as purposeful.
But there is a more basic defect in petitioners’
“textual” claim: Their understanding of Section 13(b)
as a whole does not—and cannot—give comparable
effect to any of the other clear expressions and salient
omissions in its statutory language. Their languagebased argument is thus less an invitation to follow an
interpretive canon wherever it leads than to announce
a “principle” good for one negative implication and one
only.
B. Petitioners’ legislative-judgment and anticircumvention arguments fare no better. The premise
that Section 19(a) provides a suite of substantive and
procedural protections absent from Section 13(b)
entails seeing limitations that Section 19’s text
unambiguously forecloses and overlooks protections
afforded under Section 13(b) that are comparable or
even stronger. And it is impossible to read Section
19(a) as setting a floor that fairness and certainty

6

require: Section 19(e) expressly leaves in place
remedies that go further and deter more than Section
13(b) ever could.
III. This Court should not credit petitioners’ and
amici’s assurances—based on the continued
availability of parallel state-law remedies—that
imposing their “narrow construction” of Section 13(b)
would not adversely affect consumer protection. That
claim ignores the central lesson of experience under
consumer protection law: Remedies that are
expansive on paper often prove ineffectual in practice.
It takes nothing away from state enforcers to
recognize that their efforts are not substitutes for
those of the Commission, which has vast expertise,
national jurisdiction, and global reach and is
unimpeded by structural and legal complexities that
challenge state-level efforts to address nationwide
and global misbehavior.
ARGUMENT
I. Courts’ long-recognized power to order restitution
in appropriate Section 13(b) cases is vitally
important to protecting consumers and the
economy.
1. The central premises of modern consumer
protection laws are that marketplace dishonesty is not
simply deplorable in some abstract sense, but
injurious—causing harms against which individual
consumers and businesses cannot practically protect
themselves; and that, if uncorrected, such behavior
seriously impairs the efficient allocation of resources
in the Nation’s market economy. See Pitofsky, Beyond
Nader, 90 Harv. L. Rev. 661 (1977). On this
understanding, some dishonesty is ineffectual or

7

relatively harmless: Consumers don’t expect that a
random donut shop actually serves the “world’s best
coffee”; they can inspect and evaluate many goods for
themselves; and when inexpensive, frequently
purchased items fail to perform as advertised, they
may switch to a competitor’s product. Id.
But many falsehoods and misrepresentations
cannot be discovered until long after purchase. When
an appliance is falsely marketed to last 10 years, the
consumer may not learn that claim was deceptive
until it breaks down after five, and if an ordinary
metal was used, not the space-age alloy claimed, the
consumer may never be able to detect that deception.
The same goes for goods marketed as “Made in
America,” products sold as organic, and health
supplements claimed to contain potent, safe, or pure
ingredients. Likewise, no car buyer could be expected
to have detected deception when a leading automaker
marketed pollution-spewing “clean diesel” vehicles,
whose actual breakthrough technology was software
designed to trick emissions-testing equipment. See
https://www.propublica.org/article/how-vw-paid-25billion-for-dieselgate-and-got-off-easy.
Lying
to
consumers can be a highly successful business
strategy.
Harms to consumers can go beyond pocket-book
injury. As Judge Easterbrook’s opinion in FTC v. QT,
Inc., 512 F.3d 858 (7th Cir. 2008), explained, when
useless products are marketed with false health
claims, consumers can forego therapies that might
actually help. Id. at 863, overruled, FTC v. Credit
Bureau Ctr., LLC, 937 F.3d 764 (7th Cir. 2019). (Some

8

deceptions arguably are worse still, causing injury by
concealing from consumers known dangers.)2
Consumers are not the only parties injured when
false advertising goes unchecked. It typically costs
more to produce organic goods or make products in
America than it costs a dishonest competitor to affix a
label saying that; it is obviously much more expensive
to develop health products that are demonstrably
effective in improving well-being than to lie about
that.
9. These practices inflict systemic damage on the
American economy. Consumer welfare is lost when
money set aside to purchase needed products instead
flows to sellers who lied. Bad advertising can drive out
good: When consumers become suspicious of
advertising claims, persuading them that an honest
representation is true becomes more costly—a special
obstacle for new market entrants, who account for a
disproportionate share of innovative products, but
who must rely on advertising to overcome consumer
wariness. Capital is likewise misdirected to
fraudulently successful businesses or toward
developing detection-avoidance technologies.
In significant ways, these threats have worsened
in recent years. First, the internet dramatically
decreases the cost (to perpetrators) of dishonesty:
Emails and online videos are essentially free, and it is
cheaper to build websites that look like legitimate
2 The Volkswagen scandal exemplifies this. Automobiles
marketed to environmentally conscious consumers as win-win
purchases polluted in quantities that caused thousands of
additional emergency room visits. See Alexander & Schwandt,
The Impact of Car Pollution on Infant and Child Health:
Evidence from Emissions Cheating (revised 2019).

9

businesses than to fabricate brick-and-mortar
operations. It has never been easier to gather data
about and target vulnerable consumers. By contrast,
detecting and combatting fraud have become more
complex and costly: Online shoppers cannot directly
inspect and compare goods before purchasing, nor
complain in-person when they discover they were lied
to; and it is much harder for them, and ultimately law
enforcers, to unearth who perpetrated the fraud and
where they are (or were, before the scam was exposed).
Even internet-based counterstrategies can be
outsmarted; on-line product reviews are not helpful if
positive ones are faked by the seller or negative ones
suppressed. Finally, as the many large and
sophisticated frauds that triggered the 2008 financial
crisis show, established national and multinational
corporations are not “too big (or reputable) to lie.”
Dishonest practices may be simply too remunerative
to resist, and behemoths that have resources to fight
battles of attrition with enforcement authorities can
adopt the “catch me if you can” attitude of fly-by-night
grifters.
3. Because these realities are “market failures,”
the central determinant of whether dishonest
practices can succeed—and inflict greater damage—is
the efficacy of law enforcement. For two generations,
courts, economists, and consumer advocates have
recognized that traditional common law remedies
afford remarkably ineffective consumer protection.
Consumers often do not know they are victims of
fraudulent marketing, and when they do, their
individual injuries can be so relatively small and
difficult to calculate and prove as to rule out hiring a
lawyer—even before accounting for doctrinal
limitations making winning a case almost impossible.
10

Lawsuits by competitors deprived of market share by
rivals’ dishonest marketing have never gained
substantial traction either: Although competitors are
often better positioned to detect harmful, deceptive
practices, they face difficulty proving that a rival’s
unlawful marketing caused a lower-than-expected
market share; in markets where dishonesty is
widespread (as in cigarette sales), participants have
self-interested reasons for not filing suits challenging
competitors’ deceptions; and the reality that litigation
costs are borne by the plaintiff alone, while benefits
redound to all competitors, poses a classic collective
action problem (one made more difficult by the
potential that joint efforts to sanction a misbehaving
rival will raise antitrust flags, see Fashion
Originators’ Guild v. FTC, 312 U.S. 457, 468 (1941)).
Legal reforms designed to overcome these
difficulties have proven unsatisfactory. Studies have
found small-claims court litigation to afford few cost
savings. Relaxed proof standards and enhanced
individual remedies cannot overcome the basic
unattractiveness of litigating complex disputes over
small sums. And while class actions overcome the
problem of individual consumers’ inadequate
incentive to sue, the still-modest personal stakes
make them unlikely to monitor proceedings conducted
in their name, leading to resolutions structured to
benefit the active participants—defendants and class
counsel—while doing little to rein in dishonest
practices.
Similar shortcomings have afflicted the efficacy of
administrative regimes, which do a better job than
private enforcement of targeting the “right”
defendants and avoiding opportunistic settlements.

11

But such regimes’ efficacy in preventing unlawful
practices is undermined by the historic unavailability
in agency proceedings of more than “cease and desist”
relief. Permitting defendants found to be engaged in
unlawful activity to retain the fruits of the illegality
not only is an affront to justice, it also ensures that
public interests in eradicating such misdeeds will be
thwarted. As the Court explained in Schine Chain
Theatres v. United States, 334 U.S. 110 (1948), in
rejecting an argument that courts lacked power to
order those caught violating antitrust laws to divest
themselves of assets acquired in the course of that
conduct:
[A]n injunction against future violations is not
adequate to protect the public interest. If all that
was done was to forbid a repetition of the illegal
conduct, those who had unlawfully built their
empires could preserve them intact [and] retain
the full dividends of their monopolistic practices
and profit from the unlawful restraints of trade
which they had inflicted on competitors. Such a
course would make enforcement of the Act a futile
thing unless perchance the United States moved in
at the incipient stages of the unlawful project. For
these reasons divestiture or dissolution is an
essential feature of these decrees.
Id. 128-29.
The Court then rejected the claim that such “post
hoc” relief was a judicially imposed, extra-statutory
“penalt[y]”:
Like restitution [divestiture] merely deprives a
defendant of the gains from his wrongful conduct.
It is an equitable remedy designed in the public

12

interest to undo what could have been prevented
had the defendants not outdistanced the
government in their unlawful project.
Id.
II. Section 13(b) is not properly read as withholding
courts’ historic power to order, in appropriate
cases, return of profits obtained through the
unlawful practices the court enjoins.
A. The text of Section 13(b) may not be construed as
withholding restorative relief.
Despite petitioners’ and amici’s appeals to fidelity
to “plain language,” they cannot claim that Congress
expressly foreclosed awarding restitutionary relief
when appropriate. That itself is a strike against
petitioners’ reading, given that Congress “knew how
to” express an exclusionary intent in the FTC Act, see
15 U.S.C. §57b (stating that relief does not include
“exemplary damages”)—and the long history of
awarding restitution relief in injunction suits. Nor is
it claimed that the ninety-third Congress actually
made a decision to deny federal courts the power to
order wrongdoers to return ill-gotten profits in cases
where, as a matter of equity and historical practice,
such relief would be appropriate. Rather, petitioners
propose to read the absence from the relevant part of
Section 13(b) of an express reference to “restitution”
along with the presence of “permanent injunction” as
if Congress was presented with a menu of remedies
and purposefully struck out the former. In other
words, expressio unius est exclusio alterius. But such
reliance on negative implications from statutory
silence is notoriously perilous and context-dependent,

13

and in the context of Section 13(b), it fails to yield a
tenable construction.
1. First, a legislature looking for a term to
implicitly convey an intent to exclude return-of-profits
relief could hardly choose worse than “injunction”—
except perhaps “permanent injunction,” the one
Section 13(b) codifies. The ordinary, legal meaning of
“injunction” never has been confined “to solely
prospective prohibitory relief,” AFPF Br.14. Rather,
an “injunction” has long been defined as “[a] court
order [either] prohibiting someone from doing some
specified act or commanding someone to undo some
wrong or injury.” Nken v. Holder, 556 U.S. 418, 428
(2009) (quoting Black’s Law Dictionary 784 (6th ed.
1990)) (emphasis added). Justice Story reversed that
order, putting “requir[ing] a party to do a particular
thing,” first, 2 J. Story, Commentaries on Equity
Jurisprudence § 861 (9th ed. 1866), and the 2019
edition of Black’s Dictionary presents the term as an
umbrella, including an “affirmative injunction” and a
“reparative injunction.”
Worse yet for petitioners’ argument, in California
v. American Stores, 495 U.S. 271 (1990), this Court
considered—and rejected—an essentially identical
thesis. Respondent claimed that the Clayton Act’s text
and structure established that the “injunction”
authorized under Section 16 of that statute should be
construed narrowly, as forbidding a divestiture
remedy, which respondent described as impermissibly
“post hoc,” because it aimed to undo consequences of
acts committed before the case got to court; in short,
“divestiture is not an injunction.” The Court’s
rejection of that argument began with its assessment
of plain meaning: “[O]n its face, the simple grant of

14

authority in § 16 to ‘have injunctive relief’ would seem
to encompass divestiture.” 495 U.S. at 281.
2 Nor do claims about the “preventative” thrust of
the FTC Act or the forward-looking “focus” of
injunctions, support treating “injunction” in Section
13(b) as expressing an affirmative intent to exclude
historically available companions that are not “purely
prospective.”
These
claims
about
codifying
connotations are a long way from “plain meaning
interpretation.” This Court recently noted that a
federal statute enacted 200 years ago, authorizing
relief to “prevent the violation of patent-rights,” was
interpreted from the start to support disgorgement of
profits. See Liu v. SEC, 140 S. Ct. 1936, 1944 (2020)
(emphasis added). (Indeed, the quotations cited as
establishing the FTC Act’s “preventative” character,
Pet.Br.4-5, pre-date modern amendments providing
for damages and penalties.) And had Congress meant
to rule out all but “prohibitory” relief, it “knew how to”
make such a distinction explicitly. Credit Bureau Br.
26. See 15 U.S.C. 45(l) (empowering “district
courts...to grant mandatory injunctions.…”).
3. Notably, the statutory text actually disputed
here grants courts power—in proper cases and “upon
adequate proof”—to issue “permanent injunctions.”
Solely prohibitory orders likely are the norm with
respect to preliminary injunctions—which truly are
“extraordinary,” in that they rest on a provisional
determination rather than a violation finding, almost
always before the court has heard full evidence and
sometimes before the party whose conduct is
restrained has been heard at all. See Fed. R. Civ. P.
65. See also Laycock, The Death of The Irreparable
Injury Rule, 103 Harv. L. Rev. 687, 692 (1990).

15

Permanent relief under Section 13(b), in contrast,
may not issue until after the defendant has been fully
heard on the merits, after the court has found an
ongoing or imminent violation of federal law—usually
one so clear as to establish liability as a matter of law,
see p.22, infra—and then, only after deciding that a
bare “sin no more” directive would be inadequate,
contrary to priorities expressed in the statute, or
otherwise inequitable. When equity courts issue final
decrees in suits for injunction, it is much more
common to include “command[s] to undo some wrong
or injury”—ones that, instead of merely freezing
matters at the time the court rules, address
misbehavior that “could have been prevented had the
defendants
not
[initially]
outdistanced
the
government.” Schine, 334 U.S. at 129.
Significantly, the provision here empowers courts
to stop not only imminent violations but also an
ongoing unlawful “practice.” In such cases, what it
means to be “preventative” or even “prospective” is not
self-evident. In FTC v. Southwest Sunsites, Inc., 665
F.2d 611 (5th Cir. 1982), for example, which involved
a scheme to induce unsophisticated consumers to
enter into installment purchase contracts for
worthless land, the defrauded investors stood to
forfeit any right to property and the money paid in
unless they continued to make further contractual
payments. The Fifth Circuit saw nothing in Section
13(b) that limited relief for the ongoing violation to an
order prohibiting future fraudulent sales.
4. That the meanings of “injunction” and
“restitution” are in some sense distinct, because the
terms sometimes appear separately, is not the
thunderbolt that petitioners’ amici imply. That is

16

equally true of “divestiture.” See, e.g., 12 U.S.C.
§ 1467a (providing for “an injunction, decree,...order
of divestiture, or other appropriate order”). The
central question is whether such differences matter in
statutory context, i.e., whether remedies are
antagonistic or are so intertwined that one would
expect an explicit grant of one to comprehend the
other. Merely stating that a “[contempt penalty] is not
an injunction” does not answer whether that remedy
is included—or excluded—if absent from a provision
creating an injunctive cause of action. Here, the
longstanding, close, and integral connection is beyond
doubt. In Root v. Lake Shore & M.S. Ry. Co., 105 U.S.
189 (1881), the Court recognized that, in patent and
copyright cases, “the right to an account of profits is
incident to the right to an injunction.” Id at 194. A
century later, Tull v. United States, 481 U.S. 412, 424
(1987), affirmed that “a court in equity may award
monetary restitution as an adjunct to injunctive
relief.”
It is thus wrong to treat the observation that it was
“beside the point” in Nken, that a stay order “might
technically be called an injunction,” 556 U.S. at 430,
as announcing a general rule of narrow construction,
effectively reversing American Stores. Nken’s ground
for distinguishing stays from injunctions had nothing
to do with the “pure prospectivity” limitation rejected
in American Stores and renewed here, nor did Nken
retreat from the recognition in Root and Schine of the
historic
connections
between
disgorgement,
divestiture, and prohibitions as constituent parts of
effective decrees. Nken gave the term “injunction” a
narrower reading under a provision forbidding
injunctions—thereby preserving courts’ historic
power to issue stays. American Stores gave the term
17

an encompassing interpretation—refused to give it
exclusionary effect—when, as here, it appeared in a
grant of remedial authority.
That same contextual focus explains why the
admonition against “lawyerly inventiveness,” in
Great-West Life v. Knudson, 534 U.S.204, 211 n.1,
(2002), is inapposite here. That warning concerned
the potential to dress in equitable garb “claim[s] for
legal relief”—like the money due on a contract sought
there, under a statute, ERISA, that uses “equitable”
as a term of limitation on the private remedies
afforded—in order to exclude individual remedies,
such as damages, that can disadvantage other
beneficiaries of what is essentially a common fund. As
the Court highlighted in Liu, labeling differences
among closely related or substantively identical forms
of equitable relief are seldom statutorily significant
and, as a practical matter, inescapable. See 140 S. Ct.
at 1943.3
5. With varying degrees of candor, petitioners and
amici appear to accept that their implication-based
theory is insufficient under Porter, and instead
disparage the Court’s precedent as outmoded or
somehow insufficiently respectful of Congress. Not so.
Meghrig v. KFC Western, Inc., 516 U.S. 479 (1996), which
refused to read a narrow private action provision in RCRA as
authorizing the plaintiff to recover costs previously paid a third
party for a prior clean-up is no more pertinent. The Court did not
hold the relief unavailable because it was monetary; but because,
inter alia, it was unrelated to “the subject matter of [that
unusual] suit for injunctive relief,” Porter, 328 U.S. at 399,
“imminent” health and environmental dangers from hazardous
waste. And unlike under Section 13(b), the ostensible
“restitution” sought did not involve returning money defendant
had obtained from the plaintiff.
3

18

Like many other canons and clear statement
principles, the Porter rule leaves Congress in the
driver’s seat. Just as Congress remains free to enact a
law with extraterritorial or retroactive effect or one
that alters the federal-state balance, Porter poses no
bar to legislation that withholds particular equitable
powers or draws lines between ones that traditionally
have operated in tandem, requiring only that
Congress make clear its intent to depart from
longstanding practice. Such rules are “traditional
tools of statutory construction.” See Landgraf v. USI
Film Prods, 511 U.S. 244, 261 (1994) (refusing to treat
negative implication as sufficient to overcome
nonretroactivity presumption). Indeed, the Porter rule
itself advances separation of powers values, by
ensuring that Congress acts deliberately when
altering or narrowing the Judiciary’s traditional
powers to adjudicate cases unquestionably within
courts’ jurisdiction.4

4 Despite the imprecise terminology, the concerns about
“implied remedies” that petitioners invoke, appear in decisions
addressing (1) private suits for (2) damages for violations of
federal statutes that (3) contain no cause of action. Those
features are all absent here. Creation of causes of action is not a
traditional judicial power; and it risks not only misjudging
congressional intent, but overriding explicit objections of the
Branch invested with the “power to ‘take Care that the Laws be
faithfully executed,’” Steel Co. v. Citizens for a Better Env’t., 523
U.S. 83, 129 (1998) (Stevens, J., concurring in judgment). And
the potential that private damages will disrupt an integrated,
carefully constructed statutory scheme, is far greater than with
equitable restitution. The claims here involve the exercise of
equitable discretion to remedy proven violations found in
congressionally authorized enforcement actions, initiated by the
legislatively chosen exclusive enforcement authority.

19

In fact, interpretive rules grounded in historic
practice have much less Congress-disempowering
potential than the ostensibly self-executing one
petitioners embrace. Porter requires only that
Congress say so when it intends to accomplish a
particular, highly anomalous result. Expressio
unius—by treating greater explicitness or specificity
in different provisions and later-enacted laws as a
basis for concluding that a power did not previously
exist or that an earlier omission was purposeful—can
alter statutory meaning after-the-fact, in ways
enactors did not contemplate.
6. There is a more fundamental problem with the
idea that petitioners’ construction of Section 13(b)
should be accepted because it rests on an especially
formidable canon of construction. An argument is
“rule-based” if it applies a principle consistently
whenever similar questions arise. Petitioners’ theory
is not that. While marching under the banner of
treating statutory omissions as purposeful,
petitioners do not accept the answers that approach
yields to comparable interpretive questions Section
13(b)’s text raises. And for good reason: Consistent
adherence to petitioners’ ostensible rule cannot
produce a plausible or coherent interpretation.
To begin, Section 13(b) expressly authorizes
preliminary injunctions of challenged practices but
provides that such orders terminate unless an
administrative complaint is promptly filed—in which
case the provisional order stays in place until a ceaseand-desist order becomes final. That should mean—
on petitioners’ account—that this “form of relief,” Pet.
Br.14, is unavailable in cases where the FTC seeks a
permanent
injunction,
never
initiating
an

20

administrative proceeding. But that would mean that
a district court is without power to stop a defendant
from continuing injurious—often patently unlawful—
activity until final judgment. And if that textual
answer is accepted, and the only congressionally
sanctioned way to obtain effectual provisional relief is
to file and pursue an administrative complaint, the
permanent injunction remedy would be literally
superfluous: The preliminary injunction would
prevent misbehavior until a cease-and-desist order—
which, like a permanent (prohibitory) injunction, is
judicially enforceable—took effect. And that regime, of
course, would nullify what petitioners present as the
reason Congress provided for permanent injunctions
under Section 13(b): to afford a remedy for cases
where the Section 5 administrative process provides
no benefit.
Likewise, even-handed application of expressio
unius could, by extinguishing district courts’ longrecognized authority to order asset freezes, frustrate
what petitioners posit is the overall statutory design.
They do not deny that Congress affirmatively
intended for the FTC to obtain consumer redress for
certain Section 5 violations, but argue that district
courts may order it only through the process provided
under Section 19(a). That contention is mistaken on
its own terms. See infra. But acknowledging there are
cases where monetary relief is proper requires further
recognizing the need for some effectual way to stop a
malefactor from dissipating the proceeds of unlawful
behavior between the time he learns the FTC is on his
trail and when a Section 19 decree issues. Section
13(b)’s preliminary injunction provision, however, is
silent about that sort of relief. It speaks (only) of
restraining the “practice,” 15 U.S.C. § 53(b)(2), found
21

likely to violate Section 5. This is no synthetic concern:
Numerous amici rail against courts’ exercise of this
power, and maintain that extinguishing the power to
“restrain[] assets for future monetary awards,”
Chamber Br.4, is the consequence of endorsing
petitioners’ position. See AFPF Br.7 (“Nor does
[Section 13(b)] mention ‘asset freezes.’”). Petitioners
are understandably cagey about embracing a regime
that would simultaneously render the Section 13(b)
remedy superfluous and make their proffered
substitute ineffectual against fly-by-night fraudsters.
But they offer no basis for treating one particular
“omission” as fatal, but these other, equally
conspicuous ones, as leaving equitable powers
unaffected.
B. Section 19 does not—and could not—supply a basis
for interpreting Section 13(b) to withhold judicial
power to award restorative relief.
The second leg of petitioners’ argument is that
Section 19 requires withholding equitable monetary
relief from Section 13(b) courts. That claim is an odd
one out of the gate: Section 19 was enacted later, by a
different Congress, and it provides, in plain words,
that “[n]othing in this section shall be construed to
affect any authority of the Commission under any
other provision of law.” Arguments about the meaning
of Section 13(b) that depend on inferences from
Section 19 seem at odds with that directive. But to the
extent they are permissible, petitioners’ various
Section 19 arguments depend on important
misunderstandings of the provision’s text.
1. It is simply wrong that there would be “[n]o need
for” Section 19, Pet. Br.16, if Section 13(b) allows
restitutionary relief. Whatever Section 13(b)’s
22

meaning, the FTC had no power, until Congress
enacted Section 19, to obtain consumer redress in
enforcement actions brought under its Section 5(b)
administrative adjudication authority. Indeed,
Section 19 was enacted in the aftermath of Heater v.
FTC 503 F.2d 321 (9th Cir. 1974), a prominent
decision that rejected the Commission’s contention
that it could order restitution under its own remedial
powers. And under the long-prevailing interpretation
of Section 13(b), Section 19 still relieves the
Commission of the need to choose between elaborating
on the meaning of “unfair and deceptive practices”
and divesting wrongdoers of ill-gotten gains.
2. Petitioners propose a very different role for
Section 19, as announcing Congress’s judgment,
rooted in fair notice and commercial certainty
concerns, that restitution is impermissible absent
certain “protections” and that return-of-profits relief
under Section 13(b) is forbidden, because it fails to
provide these. This theory, however, depends on
serious misunderstandings of how Section 19(a)—and
Section 13(b)—operate.
First, what the Ninth Circuit concurrence
identified as Section 19(a)’s first “procedural
protection[]”—the “multi-step process,” whereby a
Section 19 redress case “travels through an
administrative hearing and appeal and then []judicial
review and then a lawsuit,” AFPF Br.5-6, gets things
upside-down. The protection in that process comes at
the last stage, a proceeding before an Article III judge,
where the FTC is a litigant and must persuade the
court that relief is warranted. The earlier stages,
where the FTC has special powers, are the thing
protected against. Indeed, one basis for the Heater

23

decision was that the FTC—unlike a federal court—is
not presumed to have full equitable powers, because
its processes would “become suspect” as stakes rose,
since the Commission acts “as both prosecutor and
judge in its own [administrative] proceeding[s],” 503
F.2d at 325. See Liu, 140 S. Ct. at 1946-47. (“It makes
sense that Congress would expressly name the
equitable powers it grants to an agency for use in
administrative proceedings.”). Congress’s response to
Heater, Section 19, did not codify a preference for
administrative procedures over judicial ones—rather
the opposite: It affirmed the importance of consumer
redress against violators of Section 5, but also
imposed the judicial check Heater suggested.
Section 13(b) permanent-injunction proceedings
provide defendants significantly greater protection.
Facts are found and the statute is interpreted by a
court, not an agency, and decisions about relief are
informed by those judicial findings. See FTC v.
Wyndham Worldwide Corp., 799 F.3d 236 (3rd Cir.
2015). When courts encounter “ambiguity in statutes,”
they “generally adopt the best or most reasonable
interpretation,” but agencies may “adopt any
reasonable construction,” including ones “impos[ing]
higher legal obligations than required by the best
interpretation.” Id. at 252. Moreover, Section 19(c)(1)
directs that courts give “conclusive effect” to FTC
findings in cease-and-desist proceedings. Thus, when
Credit Bureau inveighs against “subjecting
businesses to one-off monetary judgments based on
the agency’s perception of what qualifies as ‘unfair or
deceptive,” Br.2-3, it is describing the mode of
proceeding it insists Congress preferred, not Section
13(b).

24

Contrary to amici’s arguments, “the Act’s two-part
structure” does not “ensure[] that American
businesses are given sufficient notice of whether their
conduct violates the Act.” NCLA Br.18. It is literally
accurate that, under Section 19, the FTC “must obtain
a final cease-and-desist order before it can collect a
monetary judgment.” Credit Bureau Br.11. Indeed,
collecting restitution requires a final court order—as
it does in Section 13(b) cases. But Section 19 relief is
not, as this implies, confined to harms committed after
a cease-and-desist order became final. Section 19(d)’s
text is unambiguous that redress may be ordered for
money obtained long before the Commission found a
Section 5 violation, indeed years before it files an
administrative complaint. 15 U.S.C. § 57b(d).
None of this is to deny that the Commission often
prefers to pursue relief under Section 13(b)—or that,
in practice, the cumbersome, multi-stage process does
not have appeal for some defendants. There are many
circumstances where the Commission has no interest
particularizing the meaning of “unfair and deceptive
practices,” but relief is imperative. No protracted
administrative proceeding is necessary to inform
regulated parties that it is unlawfully deceptive to
market undevelopable wasteland using pictures of
beachfront lots and swaying palm trees or to certify
that inexpensive coins or gems are investment-grade.
See FTC v. Sec. Rare Coin & Bullion Corp., 931 F.2d
1312, 1314-1315 (8th Cir. 1991); FTC v. Gem Merch.
Corp., 87 F.3d 466 (11th Cir. 1996). And obtaining
effective preliminary relief and relatively prompt
disposition loom large when there is concern a
defendant will fly-by-night or otherwise place victims’
money beyond courts’ remedial reach. (Such parties
have a corresponding interest in postponing remedial
25

proceedings, but that is not a “protection” Congress
meant to confer.)5
The second alleged “procedural protection” is
Section 19(d)’s statute of limitations. But as just
noted, that provision does not limit a court to
awarding three years of redress. Rather, it authorizes
the FTC to pursue—and courts to order—redress for
harms suffered three years before an administrative
action “commenced,” up through a final cease-anddesist order. That period is unpredictable and
lengthy. The cease-and-desist order in Carter
Products, Inc. v. FTC, 268 F.2d 461, 474 (9th Cir.
1959), took 16 years between complaint and finality,
and despite recent FTC initiatives to impose some
administrative deadlines, a process that travels
through multiple levels of the federal court system is
rarely speedy. Section 13(b) proceedings move more
quickly; defendants will know within months of
filing—sometimes
much
sooner—whether
a
restituionary remedy is seriously on the table. And
while no rule limits Section 13(b) relief to a fixed
number of years, were a case to arise under Section
13(b) where restitution would exceed the maximum
permitted under Section 19, the limitations statute
would “not apply” of its own force, but the court could
consider it in fashioning a decree. Kansas v. Nebraska,
574 U.S. 445, 464-65 (2015) (“[b]alancing of equities
The brief of SBH amici supplies a poignant illustration.
Although TINA.org takes no position on the merits of the
underlying allegations, when a business is sued as an unlawful
pyramid scheme, claims by current “victims” to speak for
consumer interests warrant careful scrutiny. Those individuals
almost certainly stand to fare better if the business is given
longer to grow than if it is shut down while they remain near the
“bottom.”
5

26

and hardships may lead the court to grant some
equitable relief but not the full measure requested”)
(quoting D. Dobbs, Law of Remedies § 2.4(1), p. 92 (2d
ed. 1993)).
That leaves what petitioners call Section 19(a)(2)’s
“substantive limitation”—which limits disgorgement
and damages awards to cases where a court finds that
a “reasonable man” would know defendants’ practices
to be “dishonest or fraudulent.” Petitioners are not
wrong that that is a limitation; it is not impossible to
imagine a situation where a cease-and-desist order
would be upheld, but disgorgement relief would be
denied. Cf. Hecht Co. v. Bowles, 321 U.S. 321, 325
(1944) (sustaining district court’s denial of injunction,
when there was “no doubt…of [defendant’s] good faith
and diligence”); 15 U.S.C. § 45(m)(1)(C) (penalty
determination “shall take into account the degree of
culpability… and such other matters as justice may
require”).
But it overstates matters to depict this as a mens
rea or “knowledge” requirement. See Pet.Br.28. The
statutory text makes clear that a defendant who
harbors no fraudulent intent and indeed believes
sincerely that his conduct is lawful under Section 5
may still be liable in damages under Section 19(a).
(There surely are sellers of “ionized” bracelets and
Okinawan coral who actually believe they have found
a disease-curing breakthrough.) And even as an
abstract matter, any gap between practices a
“reasonable” person would know are “dishonest” and
ones which a district court finds “deceptive” is slender.
In practice, there is likely no gap at all. Section
13(b) proceedings are governed by equitable
principles, including that “a defendant’s mental state
27

is relevant to assigning an appropriate remedy.”
Romag Fasteners, Inc v. Fossil, Inc., 140 S. Ct. 1492,
1496-97 (2020). As in that case, a defendant’s culpable
intent can be an “important consideration in
determining whether an award of profits is
appropriate,” though “it is not inflexible precondition
to recovery.” Id.
That is what four decades of decisions under
Section 13(b) indicate. Although petitioners’ and
amici’s briefs abound in references to businesses who
have large sums “extracted” by the FTC for practices
that are “common accepted industry practices,”
Chamber Br.3, or for violations based on boundarypushing interpretations of Section 5, the actual
decided cases—the ones petitioners placed on the
“wrong” side of the circuit conflict they asked the
Court to resolve—tell a different story. They depict a
rogues’ gallery of defendants whose practices every
“reasonable [person]” would recognize as “dishonest.”
The “substantive and procedural limitations” of
Section 19(a) would not have helped the defendant in
FTC v. Direct Mktg. Concepts, Inc., 624 F.3d 1 (1st Cir.
2010), whose infomercials said “direct quotes from the
New England Journal of Medicine” supported its
claim that “cancer is acidosis” and would be reversed
by ingesting coral pills, id. at 6, or the one in FTC v.
Amy Travel Serv., Inc., 875 F.2d 564 (7th Cir. 1989),
the circuit precedent Credit Bureau overruled—whose
business involved peddling “vacation certificates,”
knowing that purchasers would pay far less booking
trips without them.
Indeed, the case before the Court is no exception.
Petitioners’ brief strains to portray their culpability as
marginal—insisting that liability was based on a bare

28

misleading “net impression.” But neither the district
court nor, presumably, the jurors who convicted
AMG’s principal on 14 criminal counts at a 5-week
trial, United States v. Grote, 961 F.3d 105 (2d Cir.
2020), were persuaded that it was an honest mistake
that petitioners placed highly misleading “loan terms”
in the prominent “TILA [disclosure] box,” but
“disclosed” the reality—that borrowers who clicked
“yes” were agreeing to pay an additional $675, not
$90, to borrow $300—in small font and footnotes
scattered on multiple pages of their website. See 961
F.3d at 107 (finding “overwhelming evidence that
[petitioner was] aware of the unlawful nature of the
activities”).6 Nor is there merit to the implication that
finding deception based on a “net impression” reflects
some faddish agency innovation. The Commission’s
second published decision, in 1916, involved thread
marketed as “Kopock Silks” with the words “‘is not a
worm silk,’ printed in minute, inconspicuous letters.”
FTC v. Abbot & Co., 1 F.T.C. 16, 17. Any other rule
would give carte blanche for fraud: Sugar pills could
be marketed as cures for serious diseases by flashing
a disclaimer in the waning moments of an infomercial
that “the people in white coats were actors, not
doctors.” Cf. Direct Marketing, 621 F.3d at 12.

Petitioners’ amici’s solicitude for Section 5 defendants goes
beyond AMG. PhRMA describes the settlement with Volkswagen
as involving “allegedly misleading claims about ‘clean diesel,’”
Br.10 n.14 (emphasis added)—years after that corporation
pleaded
guilty
to
felony
charges.
https://www.justice.gov/opa/pr/volkswagen-ag-agrees-pleadguilty-and-pay-43-billion-criminal-and-civil-penalties-six.
6

29

III. Disabling Section 13(b) enforcement would result
in real and far-reaching consumer and market
harm.
The adverse consequences of accepting the
prohibitory-relief-only theory and bringing the FTC’s
Section 13(b) program to a halt would be real. To be
sure, an FTC-disabling reading of Section 13(b) would
leave in place state laws, many of which provide,
unambiguously, for restitutionary remedies and other
forms of relief that go further than does the FTC Act.
But it does not follow that state law can do the
consumer protection work the FTC program does—let
alone that state law alone can accomplish what is
currently done by both, increasingly collaboratively.
Remedies that are “robust” on paper, Credit
Bureau Br.42, do not automatically translate into
effective enforcement. As noted above, the basic
problems that supplied the impetus for sweeping
changes in consumer law in the 1960s and 1970s—
that individual victims of deceptive marketing
practices lack the knowledge, resources, and
incentives to litigate—are stubbornly persistent. A
lawsuit remains an unattractive option for a
consumer who has suffered $4 in losses, even if state
law might award him $8 and attorney’s fees if he
prevailed. Likewise, class settlements where
defendants commit to creating a “$100 million fund”
in exchange for a blanket release look much less
impressive if the claims process is designed to
minimize actual payouts. Enhancements designed to
overcome these problems that seem sensible on their
own terms can perform worse under real world
conditions, where they overlap with other regimes and

30

generate complex disputes about jurisdiction, choice
of law, and class certification.
Public enforcement under state law regimes avoids
many of these pitfalls, but not all. Even before the
unprecedented public health crisis, state budgets
were strained, and a vast array of different
substantive responsibilities competed for the
attention of the generalists who play a lead role in
consumer protection efforts. And public enforcement
does not solve the challenges of addressing
misconduct that is multi-state, nationwide, or
international in scope. Enforcement at the state level,
particularly
effectual
enforcement,
generates
difficult—and litigable—questions about legislative
and judicial jurisdiction, state court remedial powers,
and the preclusive effects of other proceedings—not to
mention protests that state regulation unduly
burdens interstate commerce or poses an obstacle to
federal statutory objectives.
The FTC is not similarly challenged. It has
nationwide jurisdiction and an unparalleled view of
the landscape. It maintains data on millions of
consumer complaints and has unique statutory
authority to operate across national borders. While
resources for the FTC’s consumer protection mission
are finite, they are ample enough to do the
investigations and factual development necessary to
hold sophisticated corporate wrongdoers accountable
for large illegalities. The Commission’s mission and
career staff have much more subject-matter focus
than officials with primary responsibility for enforcing
similar laws at the state level.
Finally, and directly contrary to petitioners’ rogueenforcer caricatures, the Commission’s work is subject
31

to substantial checks and thoughtful monitoring,
including through congressional oversight, Inspector
General reports, and statutorily mandated reporting
obligations, and active public fora. Hundreds of pages
of briefing cannot obscure the glaring reality that a
rule giving the worst wrongdoers an absolute right to
retain funds they took from unwitting victims will
make consumers and the economy more vulnerable to
harm. But it is equally true, if less obviously so, that
efforts to drive the FTC off the enforcement field will
only disserve the interests in fair, rational, and
coherent consumer protection regulation that
petitioners and amici ostensibly champion.
Conclusion
The decision of the court of appeals should be
affirmed.
Respectfully submitted,
DAVID T. GOLDBERG
Counsel of Record
DONAHUE, GOLDBERG, WEAVER
& LITTLETON
1008 Pennsylvania Avenue, SE
Washington, DC 20003
(212) 334-8813
david@donahuegoldberg.com
BONNIE L. PATTEN
LAURA D. SMITH
TRUTH IN ADVERTISING, INC.
115 Samson Rock Drive, Suite 2
Madison, Connecticut 06443
Counsel for Amicus Curiae
32

